           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       SOCIAL SECURITY
       ADMINISTRATION
   EMPLOYEES WITH TITLE XVI
   OVERPAYMENT WRITE-OFFS

  September 2002   A-04-99-64005




 MANAGEMENT
ADVISORY REPORT
                                    Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.


                                   Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:


  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.


  To ensure objectivity, the IG Act empowers the IG with:


  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.


                                     Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY


MEMORANDUM

Date:   September 12, 2002                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject:   Management Advisory Report – Social Security Administration Employees With
           Title XVI Overpayment Write-offs (A-04-99-64005)

        OBJECTIVE
        The objective of this review was to determine whether the Social Security
        Administration (SSA) identified and properly resolved its employees’ title XVI write-offs
        from overpayment debts. Additionally, we determined whether SSA should implement
        additional controls to prevent SSA employees from avoiding their Federal debt
        obligations.

        BACKGROUND

        Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
        program to provide income to financially needy individuals who are aged, blind or
        disabled. The amount of SSI payments can be affected by changes in the
                       1
        beneficiary’s earned income, marital status and living arrangements. These changes
        cause over and underpayments when they are not reported. SSA can rectify
        underpayments and some overpayments; however, many overpayments go uncollected
        and are written-off. In Fiscal Year (FY) 2001, SSA wrote off $941.3 million in title XVI
        and title II program overpayments.2

        Debt Collection Authorities

        The Deficit Reduction Act of 1984 (Public Law 98-369) permits SSA to recover
        delinquent title XVI overpayments from former beneficiaries using a Federal tax refund
        offset. The Omnibus Budget Reconciliation Act of 1990 (P.L. 101-508) gave SSA
        temporary authority for title II tax refund offsets with permanent authority granted in

        1
          For the purpose of this report, the term “beneficiary” is used generically for both title II and title XVI
        recipients.
        2
            $584.9 million in title XVI program overpayments and $356.4 million in title II overpayments.
Page 2 – The Commissioner

1992 under the Unemployment Compensation Act (P.L. 102-318). In 1994 and 1996,3
Congress greatly expanded SSA’s title II debt collection authority to allow offset of other
Federal payments made to beneficiaries. Through the Department of Treasury
(Treasury) Offset Program, in addition to Federal tax refund offsets, SSA can apply
salary and administrative offsets against other Federal payments (for example, travel
reimbursements) to collect an outstanding debt. Congress also gave SSA permission
to notify credit bureaus of an individual’s indebtedness, use private collection agencies,
and charge interest on outstanding title II debt. Following a General Accounting Office
testimony and report in 1998, SSA pursued legislation to include similar authorities for
title XVI indebtedness. However, Congress did not grant SSA identical authorities for
title XVI overpayment recoveries until 1999 under the Foster Care Independence Act
(P.L. 106-169).

Overpayment Collection and Write-off

When SSA detects that it has overpaid a beneficiary, its emphasis is on recovering the
money from the individual. SSA first attempts full and immediate recovery. If that fails,
SSA will apply the overpayment against future benefits within statutory limits. If the
debtor is not receiving SSA benefits, the Agency will attempt to negotiate a repayment
agreement. If unsuccessful, SSA should attempt recovery through the Treasury Offset
Program. However, as described in Table 1, in some instances, SSA may be
unsuccessful in collecting these overpayments and will write off the debt as
collectible (D) or uncollectible (N). In other instances, a beneficiary may request and be
granted a waiver (W) when SSA determines that specific criteria are met. Depending
on the debtor’s situation, the amount of the debt, and its pending resolution, SSA
places the title XVI debt write-off into one of the following categories.

                      Write- Trans-
    Write-off          off   action                      Definition
    Category          Code Code
    Collectible        D        B    Unwilling or unable to pay
                       D        M    Out of country or unable to locate
    Uncollectible      N     (blank) Uncollectible due to death, bankruptcy or
                                     presumptive disability
                       N        Y    Uncollectible based on a compromise settlement
                       N        A    System applied administrative uncollectible or
                                     unresolved overpayment less than $200
                       N        B    System applied administrative uncollectible or
                                     unresolved overpayment less than $30
    Waiver             W     (blank) Authorized waiver




3
 Social Security Domestic Employment Reform Act (P.L. 103-387) and Debt Collection Improvement Act
(P.L. 104-134), respectively.
Page 3 – The Commissioner

Although written-off by SSA, those deemed “collectible” (D) are subject to further
collection actions. SSA does not pursue amounts coded as uncollectible (N) or
waived (W). In the case of system applied administrative uncollectibles, the amounts
could be collected from new employees or beneficiaries who return to current pay
status. In the case of bankruptcy, SSA’s practice is to write-off any outstanding
overpayments when officially notified that a debtor filed a bankruptcy petition. However,
SSA is still obligated to determine if the court officially discharges the debt. If the court
dismisses the bankruptcy petition, SSA should reinstate the overpayment and pursue
collection.

SSA maintains a steady workforce of about 65,000 employees. On the day of
appointment, SSA’s policy is to ask employees to sign a Declaration for Federal
Employment statement.4 This declaration asks, among other questions, whether the
employee is delinquent on any Federal debt. These debts would include any
overpayments arising from Social Security benefit payments. If the response is
positive, the employee is instructed to provide a written explanation. If the response is
negative, SSA does not initiate independent action to verify the response’s accuracy.

SSA principally relies on the prospective employee to self-disclose delinquent Federal
debts, including SSA debts. SSA does not routinely cross check its own records to
identify outstanding debt or determine whether a new employee may also be collecting
title II or XVI benefits that will be affected by SSA earned income. If not considered, the
employee’s Disability Insurance (DI) or SSI benefits could be overpaid. Without
adequate controls in place, program funds may be lost because SSA will be unaware of
employees with prior overpayments or fail to take adequate actions to prevent or
minimize overpayments from SSA employment.

SCOPE AND METHODOLOGY
We performed this review to determine whether current and former SSA employees
could be the source of title XVI overpayment debt written off from October 1, 1992 to
February 4, 2000. To identify employees, we worked with SSA to perform a match
between a data file SSA had previously provided of title XVI overpayment debt written
off and the Human Resource Management Information System (HRMIS), which
contained all active and separated employees since October 1, 1992, over
110,000 employee records. From this match, we identified 677 write-offs, totaling
                                                           5
$372,135, belonging to 357 current and former employees. Included in the write-off
totals were 145 waivers worth $80,137 granted prior to employment. Assuming that the
145 waivers were properly determined and uncollectible at employment, we excluded
them from our analysis and the reported results. The remaining 532 write-offs, totaling
$291,998, belonged to 308 current and former employees and ranged in value from
$.01 to $12,369.6 The employed debtors served in a variety of positions located around
the country.

4
    Office of Personnel Management, Optional Form 306.
5
    Appendix A.
6
    Appendix B.
Page 4 – The Commissioner


Current employees include individuals on leave without pay and seasonal furlough
employees. Former employees officially resigned from SSA or were terminated by the
Agency after extended leave without pay. We reviewed 12 (10 current and 2 former)
employees to determine the basis for their overpayments and the justification for writing
off the unpaid amounts.

Of the 12 employees reviewed, 10 were chosen from a list of the top 40 employees
having a single overpayment write-off greater than $1,000 and total overpayments
written-off exceeding $2,000. The list had a mix of DB (unwilling or unable to pay),
DM (out of the country or unable to locate), and N (uncollectible due to bankruptcy)
write-off codes. These write-offs were of specific concern because the overpayments
are subject to further SSA collection. In addition, we selected two other employees who
received waivers while employed at SSA. We selected one waiver over $2,000 and the
other between $500 and $1,000. We reviewed these employees’ write-offs to provide
actual examples and scenarios of specific employee overpayments that were written
off.

We performed this review from January 2001 through March 2002. Our review
included an evaluation of existing controls, policies and procedures specifically related
to title XVI write-offs and SSA employees. However, we did not determine the overall
reliability of title XVI write-off and HRMIS data files or evaluate internal controls over
those systems. We matched data SSA previously provided on title XVI write-offs
against employee information contained in HRMIS to identify current and former
employees with title XVI write-offs in our data file. During our review of employee
title XVI write-offs, if title II write-offs were also identified, we expanded our review to
explore the justification for these additional charges. Also, we explored SSA’s progress
in enacting the statutory requirement to offset wages when Federal employees are
delinquent on SSA debt. Our findings include any control weaknesses identified and
recommendations to correct the deficiencies, where appropriate. We performed our
review in Baltimore, Maryland, and Atlanta, Georgia. Because we limited the scope of
our review by not assessing the reliability of SSA’s data bases or reviewing all controls
related to overpayment write-offs, we did not apply generally accepted auditing
standards in performing this assignment. The SSA entities reviewed were the Offices
of Operations; Human Resources; and Finance, Assessment and Management.

RESULTS OF REVIEW

From a data file of title XVI overpayments written off from October 1, 1992 to
February 4, 2000, we identified 532 write-offs totaling $291,998 belonging to
                                          7
308 current and past SSA employees. These write-offs occurred before, during and
after SSA employment. If SSA had taken appropriate steps during the employment
process, it could have identified outstanding Social Security debts and prevented
additional debt. Once identified, SSA could have used its status as an employer to
collect the outstanding title XVI and title II debts that were previously written off.
Further, SSA could have prevented other title XVI and title II overpayments and

7
    As of December 2000, this figure represented 134 current and 174 former SSA employees.
Page 5 – The Commissioner

subsequent write-offs if it had considered the impact of future SSA wages on current
benefits paid to new employees. Finally, if SSA had participated in the annual
Government-wide employee match to identify Federal employees indebted to SSA, it
would have had an added opportunity to identify both SSA and other Federal
employees with delinquent SSA debts.

HIRING EMPLOYEES WITH OVERPAYMENT WRITE-OFFS

SSA hired employees with outstanding title XVI overpayment debt write-offs that
remained undetected during the employment process. For 103 of the 308 SSA
employees, the outstanding title XVI write-off existed at the time of employment. This
included all write-offs designated as collectible or uncollectible that could have been
collected when these individuals became employed with SSA. SSA requires new
employees to sign a Declaration for Federal Employment statement certifying whether
the individual is delinquent on any Federal debt. For our review of 12 employees, SSA
could only locate 11 Declarations. Comparing the information in the applicable case file
against each employee’s Declaration, we determined that 4 of the 11 employees
accurately classified their Federal debt at the time of employment. The remaining
seven employees certified they had no outstanding Federal obligations when, in fact,
they had an outstanding debt owed to Social Security. If SSA had performed a search
of its own data, the Agency would have determined that title XVI debt existed and was
considered collectible.

For example, SSA notified one beneficiary of $17,231 in title XVI overpayments that
occurred 2 years or more before SSA employed the individual. SSA wrote-off the
overpayments because the beneficiary was unwilling or unable to pay the debt, and
SSA had unsuccessfully attempted to obtain a repayment agreement. Therefore, in
May 2000, the Agency requested that Treasury collect the overpayment using a Federal
tax refund offset. SSA collected $3,689 through tax refund offsets―one prior to and
two during his SSA employment. SSA hired the individual in October 2000, and he was
still employed as of March 2002. Over this 17-month period, the tax refund offset
remained in place, but SSA did not use any additional leverage to negotiate and
enforce a realistic repayment agreement. The SSA employee still owes the Agency
$13,542.

In February 1997, SSA hired another beneficiary as a retired Federal annuitant. SSA
could not locate this employee’s Declaration for Federal Employment statement.
However, before employing the individual, SSA wrote-off $7,496 in title XVI debt.
SSA’s justification for the write-off was that the beneficiary could not be located or was
out of the country. Subsequently, SSA’s Debt Management Section did not become
aware that the beneficiary became employed with the Agency. No evidence existed
indicating the Agency contacted the employee to resolve the debt. In fact, the
$7,496 debt write-off remained unchanged during the individual’s employment at SSA,
which ended in September 1998. This beneficiary continues to owe SSA $7,496. If
SSA had checked its own records at the time of employment, this outstanding debt
would have been identified, and steps could have been taken to collect the debt.
Page 6 – The Commissioner

A third beneficiary had a $2,071 title XVI debt that was not reported at the time of
employment. SSA records indicate this individual had knowledge of the debt over
5 years before his SSA employment. SSA originally wrote-off the debt because the
Agency determined the individual was unwilling or unable to repay. SSA employed this
individual from October 1999 to December 2000. During his employment, SSA did not
recover any of the $2,071. SSA’s Debt Management Section was unaware of this debt
because field office staff failed to move evidence of the overpayment to a new
title XVI record. As a result, there was no effort to enter into a repayment agreement
with the new employee. Neither could SSA’s systems automatically identify this write-
off for a tax refund offset. Because of this oversight, SSA missed opportunities to
collect on this debt before, during and after this individual’s employment.

In yet another instance, during a joint telephone conversation with a beneficiary and his
family in August 1997, SSA learned that the beneficiary was in prison. As authorized,
SSA immediately stopped his title XVI payments, established a $2,593 overpayment
write-off, and annotated in the record that the beneficiary was incarcerated in a foreign
prison. However, the beneficiary’s title II disability benefits continued because he was
not yet convicted of a crime. In August 1998, SSA applied its tax refund offset authority
against the outstanding title XVI debt.

In July 1999, SSA employed this individual. When he completed his Declaration for
Federal Employment statement, he certified he had never been imprisoned or convicted
of any crime and also certified he did not have any Federal debt. In February 2000, as
a result of his SSA employment, the tax refund offset produced a collection of $906. In
response, the employee contacted the Office of the Inspector General (OIG) and
alleged that an unknown person had used his name and Social Security number to
receive title XVI benefits and therefore the overpayment should not be attributed to him.
Upon further investigation, OIG obtained documentation that this employee was
convicted of drug trafficking in October 1997 and had been imprisoned for 3 years in a
foreign prison. In December 2001, SSA removed this individual from its employ upon
completion of OIG’s investigation.

Unfortunately, when SSA terminated his employment, the individual had been with the
Agency for over 2 years. With evidence the beneficiary had been convicted of a crime,
SSA determined he was also ineligible for the title II benefits collected while in prison.
Therefore, in February 2002, SSA informed the ex-employee that he owed an additional
$13,027 in title II benefits because of his foreign incarceration. Again, if SSA had
checked his title XVI record at the time of employment, it would have noted that he had
been imprisoned and owed SSA a $2,593 title XVI overpayment, even though his
Declaration of Federal Employment statement denied either. With this information,
SSA may also have taken steps to establish that there was an actual conviction and
identified the title II overpayment 2 years earlier.

These case examples demonstrate that SSA cannot rely on the Declaration for Federal
Employment statement as the sole means to identify the existence of Social Security
debt belonging to new employees. Therefore, as part of the employment process, SSA
should take proactive steps to identify outstanding Social Security debt. This would
take minimal effort, as the debt information is readily available in the Master Beneficiary
Page 7 – The Commissioner

Record and the Supplemental Security Income Record. If necessary steps are taken at
the time of employment to identify outstanding program debt, SSA can take more
appropriate actions. Specifically, SSA can explain to employees that Standards of
Ethical Conduct for Employees of the Executive Branch require that employees, as
citizens, satisfy in good faith their financial obligations, including Federal debt. This
could include the option to negotiate a realistic repayment agreement. SSA considers a
realistic period to be 12 to 36 months. Management could emphasize that, if the
employee fails to negotiate or later does not comply with an agreement, he or she
would be in violation of the ethical standard that could result in corrective or disciplinary
action. For example, SSA could make a referral for a Federal tax refund offset or a
                       8
Federal salary offset. In our opinion, SSA should use every avenue available to
identify and recover outstanding Social Security debts in full from its employees.
Additionally, we believe the benefit of such measures would far exceed the costs
associated with implementation.

PROGRAM OVERPAYMENTS CAUSED BY SSA WAGES

For 221 of the 308 employees identified with title XVI overpayment write-offs, the
overpayment occurred during employment and could have resulted directly from SSA
          9
wages. In 7 of the 12 employee write-off cases we reviewed, title XVI and title II debt
write-offs and other title II overpayments were caused directly by SSA employment.
These overpayments occurred because SSA did not take steps during the employment
process to determine whether prospective employees were collecting title XVI and/or
title II benefit payments. Because the amount of benefits paid can be affected by
earned income, the wages paid directly by SSA caused program overpayments that
went undetected for months. When identified, SSA wrote-off five of the seven
overpayments because the employee was unable or unwilling to pay, had bankrupted,
could not be located, or was granted a waiver. For one of the remaining two
individuals, the $12,480 title II overpayment was in collection status. However, the
employee’s repayment of the debt was sporadic and inconsistent. Collection on the
other beneficiary’s $8,728 overpayment was covered under a negotiated repayment
agreement. In October 2001, the employee verbally agreed to repay $20 each month.
If monthly payments are made as agreed, it will take the individual approximately
36 years to repay the interest free debt. This action is contrary to SSA’s general policy
of requiring repayment within 12 to 36 months.

If SSA had verified that prospective employees were receiving title XVI or title II benefits
during the employment process all of these overpayments and subsequent write-offs
could have been prevented. The seven title XVI and title II write-offs ranged from
$51 to $12,480. At times, the causal relationship of the overpayment to SSA’s direct
employment was either not identified or ignored. In one case, even though SSA wages
caused the title XVI overpayment, the Agency justified a $2,232 write-off in

8
 Under the Foster Care Independence Act of 1999 (P.L. 106-169), SSA is now allowed to use additional
debt collection methods, previously available to recover only title II overpayments, to recover title XVI
overpayments.

9
 Sixteen of the 308 employees had write-offs that occurred prior to, and during or after employment. As
such, these individuals are included in the employee count for this as well as the preceding finding.
Page 8 – The Commissioner

April 1999 because SSA could not locate the beneficiary. We find this justification
difficult to understand since this beneficiary had been employed at SSA since August
1996 and was still employed in March 2002.

In another case, SSA wages contributed to an employee’s title XVI overpayment
write-off, which totaled $11,236. At the time of our test, the remaining write off was
$9,792 due to a tax refund offset collection in April 1999. SSA justified the write-off in
January 1995 because the beneficiary was unwilling or unable to pay. However,
records indicate that she had been employed with SSA since December 1991, over
4 years. It appears SSA did not associate this debt as belonging to one of its own
employees and inappropriately wrote off the debt. SSA has recovered three additional
tax refund offsets reducing this debt to $5,637 as of March 2002. While the employee
had negotiated a repayment rate of $30 per month in October 2001, no payments have
been made. SSA has not taken any additional action to collect on this overpayment.

These examples demonstrate the need for SSA to eliminate overpayments accruing
because SSA has paid wages to employees who are also beneficiaries. Some
employee/beneficiaries may be under trial work periods when full benefits can be
continued. However, once the trial work ends, SSA should be ready to adjust benefit
payments affected by SSA wages. SSA may have to rely principally on title XVI and
title II beneficiaries to voluntarily report wages that can affect benefits, but wages SSA
pays directly to employees should be readily identifiable. SSA should not allow large
benefit overpayments to occur as a direct result of employment with SSA.

IMPLEMENT GOVERNMENTWIDE EMPLOYEE MATCHING

SSA has not participated in the governmentwide employee match, authorized under
Title 5 of the United States Code (USC), section 5514, to identify Federal employees
who are indebted to SSA. Based on the number of SSA employees we identified who
were indebted to SSA, we would expect that there would be a number of other Federal
employees who are also delinquent on outstanding SSA debt. As of March 2002, SSA
had not performed the required match although authority for the computer matches was
granted in 1996 pursuant to amendments contained in the Debt Collection Improvement
Act. As a result, Federal employees who were previously overpaid Social Security
benefits are being allowed to ignore their obligation to repay that debt in violation of the
Standards of Ethical Conduct for Employees of the Executive Branch.

In the 1996 amendments to 5 USC 5514,10 Congress directed all Federal agencies to
participate, at least annually, in a computer match with Treasury to identify Federal
employees who are delinquent in repayment of outstanding debts. The matched
Federal employee records include, but are not limited to, records of active Civil Service
employees, military active duty personnel, military reservists, U. S. Postal Service
employees, employees of other Government corporations, and seasonal and temporary
Government employees. After following appropriate notification, negotiation, and
hearing requirements, deductions may be made from a variety of Federal payments
including salary. If the individual later retires or resigns, or if employment or period of

10
     P.L. 104-134, § 31001.
Page 9 – The Commissioner

active duty ends before the debt is collected, deduction can be made from subsequent
payments of any nature due the individual from the agency. SSA should take every
opportunity to exercise this authority to identify all Federal employees indebted to the
Agency and take the authorized action to collect those delinquent debts (for example,
the centralized Federal salary offset).

CONCLUSION AND RECOMMENDATIONS
SSA should do more at the time of employment to identify and prevent program
overpayments and use all available authorities to collect outstanding program debts.

Therefore, we recommend that SSA:

1. Match title XVI and title II program overpayments against a list of SSA employees to
   identify current and former employees indebted to SSA. SSA should enter into
   realistic repayment agreements and, for both current and former employees, use all
   available collection options.

2. For employees with repayment agreements, ensure the individuals remain in
   compliance. If not or the employees refuse to enter into an agreement, SSA should
   take the necessary action for collection, such as a tax refund offset or Federal salary
   offset and/or other allowable disciplinary action.

3. As part of the normal employment process review the SSI Record and the Master
   Beneficiary Record for each new employee to:

   a) Identify any delinquent title XVI or title II program debt attributed to new
      employees and compare that and other information contained in SSA systems
      with statements made on the Declaration for Federal Employment statement,
      and

   b) Determine whether a prospective employee is receiving title XVI SSI or title II DI
      benefits to minimize or prevent potential overpayments due to future SSA wages.

4. If new employees are determined to have existing program debt or are receiving
   benefits, SSA should ensure that new employees enter into realistic repayment
   agreements, and that continuing benefit payments are adjusted to prevent future
   overpayments due to SSA wages.

5. SSA should also periodically match a list of active SSA employees against current
   title XVI and title II benefit payments to identify individuals who may have qualified
   for benefits while employed with SSA. Management should ensure that SSA wages
   were considered when the benefit payments were calculated.

6. Take the necessary steps to implement the match with Treasury authorized under
   Title 5, USC to identify all Federal employees who may owe SSA title XVI or
   title II overpayment debt and engage in authorized collection procedures.
Page 10 – The Commissioner

AGENCY COMMENTS

In response to our draft report, SSA agreed with our overall recommendations. With
regard to implementation of our first and fifth recommendations, SSA stated that further
information is needed to determine the benefits of computer matches to identify current
and former employees with Federal debt obligations. SSA also stated that additional
resources are needed in order to implement our second and sixth recommendations
related to Federal salary offset systems development. SSA provided other comments,
and we incorporated them into the report as appropriate. See Appendix C for the full
text of SSA's comments.

OIG RESPONSE
We concur with SSA’s plan to perform a cost benefit analysis prior to its implementation
of our first and fifth recommendations. Based on our review, we remain convinced that
the benefit of computer matches to identify current and former employees with Federal
debt obligations will exceed the associated costs since the matches will require minimal
SSA resources. For example, the information necessary for the matches is already
reported in the Agency’s systems. Furthermore, in order to collect Federal debt
obligations, we urge the Agency to provide the resources necessary for the Federal
salary offset systems development.




                                            James G. Huse, Jr.
                                     Appendices
APPENDIX A – Total Number and Dollar Value of Employee Write-offs

APPENDIX B – Range of Title XVI Employee Write-offs

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                           Appendix A

Total Number and Dollar Value of Employee Write-offs

                Write- Trans-                                           Number of
Write-off        off   action               Definition                Employee Write-     Dollar Value of
Category        Code Code                                                  offs         Employee Write-offs

Collectible      D        B    Unwilling or unable to pay                   80                     $109,457
                 D        M    Out of country or unable to locate           18                     $ 19,729
Uncollectible    N     (blank) Uncollectible due to death,
                               bankruptcy or presumptive disability        128                     $ 93,098
                 N        Y    Uncollectible based on a compromise
                               settlement                                   1                      $    664
                 N        A    System applied administrative
                               uncollectible or unresolved
                               overpayment less than $200                   3                      $    326
                 N        B    System applied administrative
                               uncollectible or unresolved
                               overpayment less than $30                   142                     $ 1,674
Waiver           W     (blank) Authorized waiver                           305                     $147,187
TOTAL                                                                      677                     $372,135
                                                  Appendix B

Range of Title XVI Employee Write-offs

Range of Write-offs   Number of    Total Value of
                      Write-offs     Write-offs
Over $10,000               2                $23,182
$ 5,001 to $10,000         9                $59,587
$ 1,001 to $ 5,000        57               $121,535
$ 501 to $ 1,000          51                $36,141
$ 201 to $ 500           105                $37,317
$ .01 to $ 200           308                $14,236
TOTALS                   532               $291,998
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      August 23, 2002                                                     Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Management Advisory Report, “Social Security
           Administration Employees with Title XVI Overpayment Write-offs” (A-04-99-64005)—
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the report content and
           recommendations are attached. Staff questions can be referred to Odessa J. Woods on extension
           50378.

           Attachment:
           Proposed Comments




                                                        C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT MANAGEMENT ADVISORY
REPORT, "SOCIAL SECURITY ADMINISTRATION EMPLOYEES WITH TITLE XVI
OVERPAYMENT WRITE-OFFS (A-04-99-64005)

Thank you for the opportunity to comment on the OIG draft management advisory report.
Although we find that there may be merit in the recommendations, we believe that additional
analysis is necessary before we can either agree or disagree with them. For example, the number
of new hires in a year is in the thousands but only a negligible number are likely to owe SSA an
outstanding debt. The systems and operations cost of “matching” 100 percent of employee
payment files against the Master Beneficiary Record and the Supplemental Security Record must
be taken into consideration. Equal Employment Opportunity Commission (EEOC) guidelines on
information that can be obtained from applicants without violating anti-discrimination laws
would also have to be considered as would labor relations guidelines and employee privacy
considerations.

SSA will review all aspects of the issues and develop options for Agency consideration.

Recommendation 1

Match title XVI and title II program overpayments against a list of SSA employees to identify
current and former employees indebted to SSA. SSA should enter into realistic repayment
agreements and, for both current and former employees, use all available collection options.


SSA Comment

We agree that all SSA employees are obligated to repay their debts based on The Standards of
Ethical Conduct for Employees of the Executive Branch. Performing a match of overpayments
against current employees would provide a useful tool for assuring that they carry out their
obligations. However, we believe that further study is needed to determine the benefits of
matching former employees. There may be no additional leverage we could use over and above
the mechanisms already in place to pursue overpayments from individuals who are no longer
SSA employees.

Recommendation 2

For employees with repayment agreements, ensure the individuals remain in compliance. If not,
or if the employees refuse to enter into an agreement, SSA should take the necessary action for
collection, such as a tax refund offset or Federal salary offset and/or other allowable disciplinary
action.




                                                C-2
SSA Comment

We agree that repayments should be reasonable and ongoing. We offset ongoing program
payments when applicable and we use billing and follow-up in attempts to collect from those not
receiving benefits. If that fails, we use more aggressive tools such as the Treasury Offset
Program and credit bureau reporting. We have also written draft regulations for Federal salary
offset. While the salary offset project is currently unscheduled, we are continuing to develop and
clear final regulations. When resources become available for Federal salary offset, we will begin
the necessary systems development to support centralized Federal salary offset.

Recommendation 3

As part of the normal employment process, review the SSI Record and the Master Beneficiary
Record for each new employee to:

   a) Identify any delinquent title XVI or title II program debt attributed to new employees and
       compare that and other information contained in SSA systems with statements made on
       the Declaration for Federal Employment statement; and,

   b) Determine whether a prospective employee is receiving title XVI SSI or title II DI benefits
      to minimize or prevent potential overpayments due to future SSA wages.


SSA Comment

We agree that the recommended changes in our employment process could strengthen our ability
to recover and/or reduce overpayments to SSA employees. However, SSA’s employment
support programs, such as Plans for Achieving Self-Support, Income-Related Work Expenses,
and Blind Work Expenses should be considered. These provisions allow an individual to be
employed and collect benefits simultaneously. If these programs are involved, the actual amount
or fact of overpayment could be mitigated. In addition, whatever procedure is used must comply
with the EEOC’s Guidelines on Disability-Related Inquiries and the Privacy Act requirement that
“each agency that maintains a system of records shall…collect information to the greatest extent
practicable directly from the subject individual when the information may result in adverse
determinations about an individual’s rights, benefits, and privileges under Federal programs….”
(5 U.S.C. 552a(e)).


Also, the Office of Personnel Management (OPM) guidelines for thehiring/appointment process
allow for Agencies to conduct whatever pre-offer/pre-appointment checks deemed necessary to
ensure the applicant/appointee meets suitability standards. Thus, checks of Federal indebtedness
could be conducted by SSA in addition to the background checks currently conducted by OPM




                                               C-3
Recommendation 4

If new employees are determined to have existing program debt or are receiving benefits, SSA
should ensure that new employees enter into realistic repayment agreements, and that continuing
benefit payments are adjusted to prevent future overpayments due to SSA wages.


SSA Comment

We agree that some type of monitoring would be beneficial. If a new hire, including an applicant
and/or an appointee, is identified as having such a debt, the appropriate SSA component will be
notified and appropriate debt collection measures implemented.

Recommendation 5

SSA should also periodically match a list of active SSA employees against current title XVI and
title II benefit payments to identify individuals who may have qualified for benefits while
employed with SSA. Management should ensure that SSA wages were considered when the
benefit payments were calculated.


SSA Comment

We agree that all SSA employees are obligated to repay their debts. However, as in our response
to Recommendation 1, we believe that further study is needed to determine if there would be any
benefit derived from matching employees against the Supplemental Security Record and the
Master Beneficiary Record. There may be no additional leverage we could use over and above
the mechanisms already in place to pursue overpayments from individuals who are no longer
SSA employees.

Recommendation 6

Take the necessary steps to implement the match with Treasury authorized under Title 5, USC, to
identify all Federal employees who may owe SSA title XVI or title II overpayment debt and to
engage in authorized collection procedures.


SSA Comment

We agree with this recommendation and have had this project in the Agency's Information
Technology (IT) Plan for some time. The project is currently unscheduled while resources are
devoted to other projects deemed to have higher priority. As stated above, we will continue to
develop the regulations for this project. When resources become available for Federal salary
offset, we will begin the necessary systems development to support centralized Federal salary
offset.



                                               C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Southern Audit Division (205) 801-1605

Acknowledgments

In addition to those named above:

   James D. O'Hara, Deputy Director

   Michele Roshetko, Senior Auditor

   Teaketa Hayden, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General's Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-99-64005.
                            DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.


                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs.
OEO supports the OIG components by providing information resources management; systems
security; and the coordination of budget, procurement, telecommunications, facilities and
equipment, and human resources. In addition, this Office coordinates and is responsible for the
OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. The quality assurance
division performs internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from the Agency. This division also conducts employee
investigations within OIG. The public affairs team communicates OIG’s planned and current
activities and the results to the Commissioner and Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
